     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499

April 19, 2010

Report Number: A-03-10-10003

Mr. Richard Davis
Chief Financial Officer
The George Washington University Hospital
900 23rd Street, N.W.
Washington, DC 20037

Dear Mr. Davis:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Payments for Outpatient Lithotripsy Services Provided at
The George Washington University Hospital, Washington, DC. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov, or contact Bernard Siegel,
Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov. Please refer
to report number A-03-10-10003 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Richard Davis

cc:

Shelly Foxworthy
Vice President /Audit and Reimbursement
Wisconsin Physicians Service Insurance Corporation
3333 Farnam Street
Omaha, Nebraska 68131


Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
ROkcmORA@cms.hhs.gov
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   PAYMENTS FOR OUTPATIENT
     LITHOTRIPSY SERVICES
   PROVIDED AT THE GEORGE
WASHINGTON UNIVERSITY HOSPITAL,
       WASHINGTON, DC




                        Daniel R. Levinson
                         Inspector General

                            April 2010
                          A-03-10-10003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Providers generate claims for outpatient services provided to Medicare beneficiaries. CMS
guidance requires providers to bill accurately using the appropriate revenue codes and Healthcare
Common Procedure Coding System (HCPCS) codes and to report the correct units of service
performed. Revenue codes identify the cost center used on the hospital’s annual cost report.
CMS’s outpatient prospective payment system uses the HCPCS code to identify and group
services into an ambulatory payment classification group. Medicare fiscal intermediaries use
CMS’s outpatient prospective payment system to pay for outpatient hospital services on a rate-
per-service basis using the ambulatory payment classification group assigned to each service.
Generally, when providers bill for more than one surgical procedure on the same date of service,
the system pays the first procedure at the maximum allowable payment and additional
procedures at half the maximum allowable payment.

Extracorporeal Shock Wave Lithotripsy (lithotripsy) is a non-invasive method of treating kidney
stones using a device called a lithotripter that uses acoustic shock waves generated outside the
body to break up kidney stones in the upper urinary tract. Generally, providers bill for lithotripsy
procedures using revenue code “0790” (extracorporeal shock wave therapy) and HCPCS code
“50590” (lithotripsy).

The George Washington University Hospital (the hospital) is a 371-bed acute-care hospital
located in the District of Columbia. During our audit period, Mutual of Omaha was the
Medicare intermediary for the hospital. In 2005, Wisconsin Physicians Service Insurance
Corporation became the hospital’s intermediary. As the current intermediary for the hospital,
Wisconsin Physicians is responsible for collecting overpayments for the hospital’s claims.

OBJECTIVE

Our objective was to determine whether payments received by the hospital from its intermediary
were appropriate for outpatient lithotripsy services billed by the hospital.

SUMMARY OF FINDING

The hospital received overpayments totaling $31,839 for 39 hospital outpatient lithotripsy
services. The hospital received these overpayments because it billed for the same lithotripsy
service using multiple revenue codes.




                                                 i
RECOMMENDATIONS

We recommend that the hospital:

      return the $31,839 for the 39 lithotripsy overpayments and

      review claims with lithotripsy services paid by the intermediary after December 31, 2007,
       and return any overpayments identified.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION...................................................................................................................... 1

          BACKGROUND ............................................................................................................. 1
              Medicare Fiscal Intermediaries.............................................................................1
              Hospital Outpatient Prospective Payment System................................................1
              Outpatient Lithotripsy Services ............................................................................1
              The George Washington University Hospital.......................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDING AND RECOMMENDATIONS................................................................................3

          MULTIPLE LITHOTRIPSY SERVICES PAID..............................................................3

          HOSPITAL COMMENTS................................................................................................3

          RECOMMENDATIONS..................................................................................................3


APPENDIX

          THE GEORGE WASHINGTON UNIVERSITY HOSPITAL COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Fiscal Intermediaries

CMS contracts with fiscal intermediaries to, among other things, process and pay Medicare
Part B claims submitted by hospital outpatient departments (providers). The intermediaries’
responsibilities include determining reimbursement amounts, conducting reviews and audits, and
safeguarding against fraud and abuse. Federal guidance provides that intermediaries must
maintain adequate internal controls over automatic data processing systems to prevent increased
program costs and erroneous or delayed payments.

To process providers’ claims, the intermediaries use the Fiscal Intermediary Standard System
and CMS’s Common Working File. These systems can detect certain improper payments during
prepayment validation.

Hospital Outpatient Prospective Payment System

Providers generate claims for outpatient services provided to Medicare beneficiaries. CMS
guidance requires providers to bill accurately using the appropriate revenue codes and Healthcare
Common Procedure Coding System (HCPCS) codes and to report the correct units of service
performed. Revenue codes identify the cost center used on the hospital’s annual cost report.
CMS’s outpatient prospective payment system uses the HCPCS code to identify and group
services into an ambulatory payment classification group. Intermediaries use CMS’s outpatient
prospective payment system to pay for outpatient hospital services on a rate-per-service basis
using the ambulatory payment classification group assigned to each service. Generally, when
providers bill for more than one surgical procedure on the same date of service, the system pays
the first procedure at the maximum allowable payment and additional procedures at half the
maximum allowable payment.

Outpatient Lithotripsy Services

Extracorporeal Shock Wave Lithotripsy (lithotripsy) is a non-invasive method of treating kidney
stones using a device called a lithotripter that uses acoustic shock waves generated outside the
body to break up kidney stones in the upper urinary tract. Generally, providers bill for lithotripsy
procedures using revenue code “0790” (extracorporeal shock wave therapy) and HCPCS code
“50590” (lithotripsy).

The George Washington University Hospital

The George Washington University Hospital (the hospital) is a 371-bed acute-care hospital
located in the District of Columbia. George Washington University and Universal Health
Services, Inc., a healthcare management company, jointly own the hospital. During our audit


                                                 1
period, Mutual of Omaha was the Medicare intermediary for the hospital. In 2005, Wisconsin
Physicians Service Insurance Corporation became the hospital’s intermediary. As the current
intermediary for the hospital, Wisconsin Physicians is responsible for collecting overpayments
for the hospital’s claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments received by the hospital from its intermediary
were appropriate for outpatient lithotripsy services billed by the hospital.

Scope

We reviewed 37 payments totaling $93,009 that the intermediary paid the hospital for 76
lithotripsy procedures from January 1, 2003, through December 31, 2007. We limited our
review of the hospital’s internal controls to those applicable to the lithotripsy claims because our
objective did not require an understanding of all internal controls over the submission and
processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted fieldwork from November 2009 through February 2010. Our fieldwork included
contacting the hospital.

Methodology

To accomplish our objective, we:

       reviewed applicable Medicare laws, regulations, and guidance;

       used CMS’s National Claims History file to identify claims paid for hospital outpatient
        lithotripsy services using more than one revenue code per day;

       contacted the hospital and requested that it determine whether the claims were
        overpayments and, if not, why the claims were not overpayments;

       reviewed documentation provided by the hospital; and

       discussed the overpayments with hospital personnel to determine why the overpayments
        occurred.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



                                                 2
                             FINDING AND RECOMMENDATIONS

The hospital received overpayments totaling $31,839 for 39 hospital outpatient lithotripsy
services. The hospital received these overpayments because it billed for the same lithotripsy
service using multiple revenue codes.

MULTIPLE LITHOTRIPSY SERVICES PAID

CMS’s Medicare National Coverage Determinations Manual, Pub. No. 100-03, chapter 1, part 4,
section 230.1 defines Extracorporeal Shock Wave Lithotripsy as a non-invasive method of
treating kidney stones using a device called a lithotripter that uses shock waves generated outside
the body to break up kidney stones in the upper urinary tract. CMS’s Medicare Claims
Processing Manual, Pub. No. 100-04, chapter 4, section 20.4, states: “The definition of service
units … is the number of times the service or procedure being reported was performed.”

For 37 claims, the hospital billed and received payment for excessive treatments because the
hospital billed Medicare at least twice for the same lithotripsy service. The hospital correctly
billed the lithotripsy service using revenue code “0790” with HCPCS code “50590” and
incorrectly billed for the same service using the operating room revenue code, “0360,” with
HCPCS code “50590.” The hospital received $93,009 for these lithotripsy services, rather than
the allowable amount, $61,170, resulting in overpayments totaling $31,839. 1

HOSPITAL COMMENTS

In response to our audit inquiry, the hospital reviewed the 37 claims and agreed that the claims
included duplicate lithotripsy charges. The hospital attributed the incorrect payments to an
isolated problem that the hospital fully remedied. The hospital also identified two additional
lithotripsy claims that Medicare paid from January 1, 2003, through December 31, 2007.
However, these claims were not included in our review, as incorrectly reported in the hospital’s
response. Medicare denied one of the claims and adjusted the other claim correctly. The
hospital’s comments are included as the appendix.

RECOMMENDATIONS

We recommend that the hospital:

       return the $31,839 for the 39 lithotripsy overpayments and

       review claims with lithotripsy services paid by the intermediary after December 31, 2007,
        and return any overpayments identified.




1
 The allowable amount is the amount the intermediary paid at the maximum allowable payment amount. The
overpayment amount is the amount the intermediary paid at half the maximum allowable payment amount.


                                                     3
APPENDIX
           APPENDIX:        THE GEORGE WASHINGTON UNIVERSITY HOSPITAL COMMElITS

                                              THE GEORGE
                                              WASHINGTON
                                              UNIVERSITY
                                              HOSPITAL

January 29,2010 	
                                                         W;~
                                                         Uniwrsa! Health


Bernard Siegel, Audit Manager
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106-3499

RE: 	   Report Number A-03-10-1003 (George Washington University Hospital- Medicare
        Lithotripsy Coding, Review)

Dear Mr. Siegel:

This letter responds to your letter dated November 17,2009 which contained the results of an OIG audit
of selected Medicare Lithotripsy claims and the potential overpayments identified during calendar years
2003 and 2004 'for George Washington University Hospital (GwpH). The appropriat,e GWUH staff
reviewed the 37 unique patient encounter numbers and the associated charges and coding related to your
audit of lit~otripsy cases at the George Washington University Hospit~d and with the exception of the two
accounts noted below, I agree the claims ·included a duplicate CPT code 50590 and therefore are
incorrect.

This duplication issue was an isolated probkm that- has been fully remedied by GWUH. As this OIG
audit highlighted a· potential CPT code duplication issu~ with Medic~re lithotripsy ca~~s, the GWUH
business and HIM staffs initiated a broadet; review. While not material in,amount, the GWUH review of
subsequent years lithotripsy claims rev~aled additional potential duplicati~n an<i those accounts are
currently being ~eviewed by our HIM staff.                                           .

The two accounts identified bY'-the OIG that require no repayment are:

    1. 	 Acct 108234659- The account was denied an{i charges Were written off.
    2. 	 Acct 108997545- The account had mult~ple paYlJlent and take backs activity but ultimately the
         final payment wascotrect'.

I have enclosed the supporting documentation for th~~e two Medicare accounts for your review.
The GWUHbusiness office staffhas initiat~dthe rebilling proceSS on the 35 errant account~ specificallY
related to this audit and will re-bill any 9ftpe additlon~l claims We identified in our subsequent review as
iliey are completed~ We anticipate the re-bill process for all claims to be completed by the end of
February 2.010.

Please contact me if I can provide any other inform~tion related to this issue.



s~~
Richard Davis
Chief Financial Officer

RD:na


          9 00   23 RD STREET,   NW •   WASHINGTON,   DC 20037    • (202) 715- 4500 •   www.gwhospital.com
